Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




  PATERNITY ESTABLISHMENT

     Administrative and Judicial Methods




                      JUNE GIBBS BROWN
                       Inspector General

                          APRIL 2000
                         OEI-06-98-00050
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Region VI prepared this report under the direction of Chester B. Slaughter, Regional
Inspector General and Judith V. Tyler, Deputy Regional Inspector General.

Principal OEI staff included:

DALLAS                                          HEADQUARTERS

Blaine Collins, Lead Analyst
                   Alan Levine, Program Specialist
Ruth Ann Dorrill, Project Leader
               Joan Richardson, Program Specialist
Marnette Robertson
                             Linda Hall
Clark Thomas, Ph.D.

Nancy Watts

Lisa White


FIELD OFFICES

Lucille Cop
Vincent Greiber
Ianna Kachoris
Thomas Purvis
Graham Rawsthorn

         To obtain copies of this report, please call the Dallas Regional Office at 214-767-3310.
          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                     E X E C U T I V E S U M M A R Y

PURPOSE

This report describes administrative and judicial methods of paternity establishment employed by
State child support agencies, and discusses the perceptions of key staff who have experience with
these procedures.

BACKGROUND

Federal regulation requires States to design administrative processes in the hope that they would
remove the disposition of many paternity actions from the traditional court-based adjudication
approach. The Federal Office of Child Support Enforcement (OCSE) has provided both guidance
and funding specifically related to expediting paternity establishment procedures, and States have
worked to streamline their court processes and to make available fully administrative methods of
establishing paternity. This report reviews typical State approaches for establishing paternity
through primarily administrative or judicial methods, as well as combinations of the two. It
describes key features of State paternity establishment methods and also provides staff
perceptions of their advantages and disadvantages. Our data comes from mail surveys of all State
child support agencies, as well as information from local offices in six focus States, including 99
mail surveys and 48 staff interviews. We did not attempt to validate the timeliness and
effectiveness of the paternity establishment methods States employ. For this executive summary,
we highlight only selected overall observations about State methods, reserving analysis and
detailed description of these methods for the body of the text.

FINDINGS

States Have Not Yet Progressed as Far as Might be Expected in Implementing Fully
Administrative Paternity Establishment Methods.

Despite Federal encouragement and inherent advantages to using administrative methods, many
States still have fairly significant court involvement in their paternity establishment practices. All
State systems require some collaboration between child support agency and State courts. The
level of court involvement varies from States which use the courts only for the most difficult of
contested paternity cases, to States which require routine judicial approval for all paternity
establishments. We expected child support agency respondents to report a strong preference for
fully administrative methods, believing they would desire greater control of the paternity
establishment process and would have experienced delays and other problems when dealing with
the courts. Although many State and local child support respondents did report such frustrations,
others told us that they were more comfortable with systems that still employed limited court
involvement. Taken as a whole, States do appear to be increasing administrative responsibility
when practical and when State law allows, as well as streamlining remaining court procedures.
Although all States are unique in their balance between administrative and judicial practices, we
found it useful in our analysis to classify States as primarily relying on one or the other approach.


                                                   i
States are Evenly Divided Between Those Using Primarily Administrative and Primarily
Judicial Methods, Although All Utilize Elements of Both to Some Degree.

Twenty-five States use primarily quasi-administrative establishment methods, encouraging
acknowledgment or other mutual parental consent, often following genetic testing. The remaining
26 States primarily use quasi-judicial methods of paternity establishment, usually involving much
collaboration between State courts and the child support agency. These methods give the child
support agency primary control of paternity establishment efforts such as locating absent parents,
initiating actions, completing paperwork and enforcing court mandates, but enlist State courts to
make final case decisions and authorize establishments. There is much variation among States
within these two categories. Also, it is not uncommon for a single paternity case to go through
both administrative and judicial methods before it is ultimately resolved. Our report provides
detailed descriptions of each of these paternity establishment methods and characterizes the
interaction between the child support agencies and courts. We also provide a description of
default paternity orders, created after multiple attempts to contact a putative father yield no
response. Default orders are allowed only through the courts in 40 States and usually can only be
appealed in court.

Child Support Staff Perceive Advantages and Disadvantages in Both Primary Methods.

Child support respondents report more fully administrative methods generally allow their agencies
greater procedural control, more closely comply with Federal standards, and are easier for child
support agency staff to facilitate than primarily judicial procedures. Fully administrative
procedures appear to be particularly useful when both parents mutually consent to establish
paternity, either without or following genetic testing. Child support agency respondents in 17
States perceive judicial methods of establishment as more difficult for parents. Staff with
primarily administrative procedures also report they value their authority to complete the paternity
process independently, and believe most cases can be resolved more quickly with routine
administrative procedures than by subjective court judgments. However, a number of child
support agency respondents, particularly at the local office level, insist that limited court
involvement does not slow the process. They believe that action by the courts is regarded more
seriously by parents and provides a more solid foundation for collection of support. They also
report quasi-judicial paternity establishment methods sometimes speed the entire process of
collecting support, because a single court process allows them to more easily complete all aspects
of the child support order.

Child Support Staff Report Several Problems and Inefficiencies That Need Improvement.

Within both quasi-administrative and quasi-judicial systems, there appear to be recurring
problems. These problems include difficulty in delivering notice to a putative father that he has
been named in a paternity case, duplication of effort because both State agencies and courts may
fail to accept administrative paternity establishments as valid, and State creation of multiple
administrative and court processes that are cumbersome and unnecessary. These problems may
cause unnecessary delays in paternity establishment, and represent opportunities for OCSE to help
improve State practices through technical assistance.


                                                 ii
RECOMMENDATIONS

OCSE Should Assist States in Sharing Effective Practices for Notifying Putative Fathers.

OCSE should further research State practices for notifying putative fathers through “service of
process,” identifying successful local practices and providing technical assistance to States for
adopting improvements with the potential to reduce delays in paternity establishment.

OCSE Should Encourage States to Strengthen Child Support Agency Authority and
Capability, Enabling Them to Establish Paternity Without The Courts When Practical.

When the only method of administrative paternity establishment is voluntary acknowledgments,
used primarily at birth, States must rely on courts to issue most or all paternity orders. Some
States need additional guidance in developing fully administrative procedures and eliminating
unnecessary court involvement.

OCSE Should Provide Technical Assistance to States Aimed at Streamlining and
Rationalizing Their Paternity Establishment Methods, Whether Administrative or Judicial.

Federal regulations encouraging administrative procedures are intended to increase the timeliness
and efficiency of the paternity establishment process. Regardless of any court involvement, OCSE
should provide further assistance to States aimed at this objective of expedited practices.

OCSE Should Encourage States to Further Explore the Usefulness of Combining Separate
Child Support Functions, Including Paternity Establishment, into a Single Process.

Recognizing that State paternity establishment practices for public assistance clients often still
involve summary court action, OCSE should assist States in determining whether they may
combine other child support functions with paternity establishment in a single process.

AGENCY COMMENTS

The Administration for Children and Families (ACF) generally concurs with our
recommendations, and agrees to continue efforts to address the issues raised in our report. We
appreciate ACF's current initiatives aimed at improving State practices in paternity establishment.
We wish to particularly reinforce the idea that, although Federal regulation encourages
administrative procedures, States need to streamline and rationalize their paternity establishment
methods whether administrative or judicial.

ACF comments are provided in their entirety in Appendix A.




                                                  iii
                   T A B L E OF C O N T E N T S

                                                         PAGE


EXECUTIVE SUMMARY                                            i


INTRODUCTION                                                 1


FINDINGS


     Creating a Paternity Case                               3


     Administrative Methods of Paternity Establishment       6


     Judicial Methods of Paternity Establishment            11


     Default Orders of Paternity                            14


RECOMMENDATIONS                                             18


AGENCY COMMENTS                                             19


ENDNOTES                                                    20


APPENDIX                                                   A-1

                             INTRODUCTION

PURPOSE

This report describes administrative and judicial methods of paternity establishment employed by
State child support agencies, and discusses the perceptions of key staff who have experience with
these procedures.

BACKGROUND

The nation’s non-marital birth rate in many areas exceeds 50 percent of all births. Children living
in single-parent households are typically at much greater risk of poverty, and many born outside
marriage have little or no contact with their fathers. Almost a third of children currently on public
assistance lack paternity establishment, and new limits on welfare benefits are likely to increase
the incentives for establishing paternity and collecting support. Child support awards cannot be
made unless the father of the child is legally identified, which traditionally has occurred through a
State court process.

Federal regulation requires States to design administrative processes that would potentially
remove the disposition of a significant segment of paternity actions from the traditional court-
based adjudication process. In addition to requiring States offer voluntary acknowledgment of
paternity, Federal law states that “each State is encouraged to establish and implement a civil
procedure for establishing paternity in contested cases.”1 Recently, Congress has also heightened
State emphasis on paternity establishment by creating State goals for resolving the paternity of
children on public assistance, and designing fiscal sanctions against States failing to meet them.
The Federal Office of Child Support Enforcement (OCSE) has provided both guidance and
funding specifically related to expediting paternity establishment procedures, centralizing record-
keeping and streamlining case management. States have worked to streamline their court
processes and to make available fully administrative methods of establishing paternity, primarily
concentrating on voluntary paternity acknowledgment programs.

The number of paternities established annually has grown with this Federal and State emphasis,
both among public assistance clients and the general population. However, States have faced
numerous challenges in implementing the Federal guidelines and raising their paternity
establishment rates. Areas of concern reported by States include coordination between State
agencies, cooperation from public assistance clients in providing information on absent parents,
and integration of newer administrative processes with traditional judicial practices. Substantial
variation exists among State paternity establishment procedures, since paternity establishment is a
matter of family law which falls under State jurisdiction. However, when viewed as a whole, it is
possible to discern recurring themes in State experiences and draw general conclusions about
common practices and potential barriers to paternity establishment under the Federal guidelines.




                                          )))))))))))
                                               1
REPORT CONTENT

In studying State paternity establishment methods, we found it useful to divide practices into three
primary categories: voluntary paternity acknowledgment, other administrative paternity
establishment methods, and judicial paternity establishment methods. However, many State
processes do not fit neatly within these three basic categories but include quasi-administrative or
quasi-judicial methods, depending upon the level of court involvement. Additionally, it is not
uncommon for a single case to go through both administrative and judicial methods before
reaching resolution. Because voluntary paternity acknowledgment poses unique questions of
policy and practice, we discuss its use separately in a companion report entitled Paternity
Establishment: Use of Voluntary Paternity Acknowledgments (OEI 06-98-00053). This report
seeks to characterize typical State methods for establishing paternity through administrative and
judicial methods, describing staff perceptions of each. It also specifically highlights State use of
default paternity orders, which we view as particularly important.

METHODOLOGY

Information for this report comes from mail surveys to the primary State vital records office and
child support enforcement office in all 50 States and the District of Columbia (100 percent
response rate.) To provide insight on local-level implementation of State policies, we also
surveyed by mail a selection of local child support offices in six focus States: California, Georgia,
Illinois, New Jersey, Texas, and Virginia. Offices within these States were selected to provide a
mix of urban, suburban, mid-size and rural locations.2 We received completed surveys from 99
local child support offices, representing an 80 percent response rate. We also conducted on-site
interviews with administrators and front-line staff in four local child support offices within each
focus State, visiting offices within one or two cities and their surrounding areas in each focus
State, and collecting supplementary documentation.3

We purposively selected the focus States by reviewing the following criteria: non-marital birth
rates, State Paternity Establishment Percentages; percentage of child support cases with support
orders, status of voluntary acknowledgment programs; certification status of automated systems,
outstanding program characteristics (innovation, privatization, etc.); status as State-administered
or county-administered, and geographic region. Our focus States represent a fairly broad
spectrum of establishment methods and experiences. The selection of focus States does not
purport to be representative of the nation. It does, however, allow for examination of paternity
establishment processes under conditions found throughout the country.4

This study was conducted as part of a larger project on State paternity establishment practices.
Data collection focused primarily on establishment procedures outside birthing hospitals.
Companion reports discuss the role of vital records agencies, and other entities, in paternity
establishment efforts, genetic testing practices and the use of voluntary acknowledgments.

This study was conducted in accordance with the Quality Standards for Inspections issued by the
President’s Council on Integrity and Efficiency.



                                          )))))))))))
                                               2
                                      F I N D I N G S

CREATING A PATERNITY CASE

When public assistance clients with children apply for benefits, they must either provide proof of
paternity or assist the child support enforcement agency in establishing paternity by providing
information about the putative father. The child support office then creates a paternity case and
usually begins its paternity establishment efforts by attempting to locate the putative father. Once
they have located the putative father, they may encourage him to voluntarily acknowledge
paternity, arrange for genetic testing, or begin other proceedings to establish paternity.

Half of Local Child Support Offices in Focus States Have Staff Who Specialize in Paternity
Establishment, Others Add Elements of Specialization to Their Case Management Approach.

Several local office staff members are likely to share responsibility for establishing paternity for a
specific case. Fifty percent of local offices have staff which coordinate paternity establishment
efforts and work exclusively on paternity cases. In these offices, the paternity specialists turn the
case over to other staff who then enforce support after paternity has been established. The other
half of offices report a more traditional office structure where staff serve as case managers and
handle each aspect of cases, from paternity establishment through distribution of support.

Even when offices use a case management approach, staff may still specialize in a particular area
and be responsible for assisting other staff with that aspect of their cases (paternity establishment,
locate, order enforcement) in addition to managing all aspects of their own caseload. One
advantage of this system is that staff may better learn how to handle and expedite challenging
cases while still ensuring that someone is responsible for tracking each individual case to
resolution. Both office styles also usually use a general intake worker as part of the paternity
establishment process. Seventy percent of local offices in focus States indicate that they use
intake workers to interview clients regarding paternity and record data on the absent parent, even
if that staff member has no future contact with the case.

Child Support Staff in 25 States Prioritize Their Paternity Case Work, Often by First
Resolving Cases for Which They Have the Most Information.

About half of State child support agencies (25) request that local offices prioritize their paternity
caseload by certain case characteristics. State preferences on prioritization are more likely to be a
subtle influence reflecting the culture and general policies of the State agency, rather than a strict
directive to local offices. Many States appear to allow local office managers a great deal of
discretion in determining which cases to work first. In our six focus States, 70 percent of local
office managers require their staff to prioritize their caseloads. Preferences of local office
managers appear to represent stricter guidance than preferences of State policy makers. Local
offices we visited often had highly structured guidelines for conducting individual casework. In a
few offices, staff performance reviews are linked to the percentage of their caseload with paternity
resolved or support collected. Table 1 outlines the case characteristics child support staff are


                                           )))))))))))
                                                3
most likely to use in prioritizing their paternity caseloads. Additional characteristics include
working cases with the least information or cases involving more than one child.

    Table 1: CASE CHARACTERISTICS USED IN PRIORITIZING PATERNITY CASELOADS

          Case Characteristics              State CSE Respondents   Local CSE Focus Respondents

 No Uniform Prioritization Used                49% (25 States)             38% (35 Offices)

 Most Information Already in Case File            43% (22)                    58% (54)

 Most Recent Births                               10% (5)                     18% (15)

 Been in System the Longest                        6% (3)                     15% (12)

 Client Near Public Assistance Time Limit          6% (3)                      12% (9)


Information from Public Assistance Interviews is Used to Establish Paternity, But Child
Support Agencies in 38 States Believe it is Important for Their Staff to Also Interview Clients.

When clients apply for public assistance or attend an interview to re-determine benefits, they are
interviewed by public assistance staff to provide information on income, resources, children, and
potential for employment. If a child’s paternity is not resolved, clients are asked during these
interviews to identify the absent parent for paternity establishment and pursuit of child support.
The number of questions asked of clients varies by State, as does the degree to which staff are
trained to actively pursue correct answers. This information about the absent parent is then
transferred to the child support agency.5

Child support agencies in 18 States require clients to also submit to an interview with child
support staff in order to supplement the information gathered by public assistance staff. Eleven of
these 18 require that the interview be in person, while the other seven accept a telephone call.
Other States report they may request such an interview, depending upon the amount and quality
of the information received from public assistance. Seventeen State child support agencies report
they rarely if ever interview clients themselves, relying on public assistance interviews for initial
information and then expanding on that information through the use of various tools used to
locate absent parents.

States which do request or require separate child support interviews feel strongly that they are
beneficial. Agencies in 38 States report this initial interview is important to the paternity
establishment process. They report they are most likely to seek a separate interview if the case is
new, the information received from the public assistance office is particularly thin, or if one of
their staff members is out-stationed within the public assistance office and is therefore immediately
available for a supplemental interview. In some cases of out-stationing, or when child support
staff and public assistance staff are co-located in the same office, public assistance staff may make
no attempt to discuss the putative father and allow the child support staff to handle even the initial
interview regarding absent parent information. Regardless of whether the interview is initial or
supplemental, child support staff are likely to have three objectives: to establish paternity; to


                                            )))))))))))
                                                 4
create a support order; and to create a medical order. Therefore, the interview may go beyond

basic information such as name and address, to discuss employers and 

known assets.


Half of State Child Support Agencies Report Most Clients Provide Adequate Information
About Absent Parents, But Agencies Identify Many Reasons Why Clients May Not Do So.

Public assistance clients are required by Federal law to provide information about the absent
parent to the child support enforcement agency or risk losing benefits. State child support
agencies in 27 States report most public assistance clients provide full information about absent
parents in order to aid in the establishment of paternity. Of the remaining States, 17 report about
half of clients tell as much as they know, and seven report at least some clients give full
information. Local child support offices in focus States largely mirrored this response, with 47
percent indicating that most or nearly all clients provide full information, 31 percent indicating
about half do, and the remaining 22 percent reporting only some or few provide full information.6

Child support staff at both the State and local level report a number of reasons why public
assistance clients might be unable or unwilling to provide information that will assist paternity
establishment efforts. Reasons include mothers not wanting the father in the child’s life, wanting
to protect the father from collection, and fearing domestic violence. By helping to locate the
father, clients may lose both public benefits as well as informal financial support from the father.
In addition, the State may never successfully collect on the support award. These factors help
explain why some clients may view providing information as a great risk with little potential gain.
Staff also report that some clients genuinely lack information about the father’s identity or
whereabouts.

Child support staff typically take whatever information is provided by the public assistance client,
and begin the process of locating the putative father. Staff may verify information locally through,
for example, the post office or local police records, or they may use State-wide databases which
include driver’s license and employment records. They may also interview family members or
other interested parties to obtain supplemental information. When the client names more than one
putative father, staff usually encourage the client to narrow to one possibility.

Local Child Support Staff Often Have Difficulty in Notifying Putative Fathers That Have
Been Named in a Case, and Report This “Service of Process” Delays Establishment.

Once the mother or other source has identified a putative father, and the child support agency is
reasonably sure they have located his home or work address, the man must be notified that he has
been named in the case. This notification is typically a letter alleging his paternity and requesting
an appointment with child support staff, submission to genetic testing, or attendance at a court
hearing. The putative father’s receipt of this letter is called “service of process.” Some local
offices include more information about child support in the letter, either simply for the father’s
benefit or to induce him to respond. Our review of letters used by local offices found




                                          )))))))))))
                                               5
some are strictly professional and straightforward, while others sound more threatening and
warned of default orders and potential arrearages. A few letters include the amount of money
they expect he would be required to pay in child support each month.7 One local office in a focus
State purposefully increases the payment amount to encourage the fathers to respond: “Actually,
putting a higher figure than the father’s actual salary would justify helps get a much better
response rate. They come in and say, ‘I can’t afford this!’ . . . we say we will change the amount
to conform to his actual salary upon proof. Then we get him also to sign that he is the father.”

Service of process is important to resolving paternity in a timely fashion. It is also critical because
most States do not allow a default order of paternity to be issued unless the putative father has
been properly served. A local office manager explains, “Service is our worst problem in tracking
down paternity cases.” There are many methods of service, and offices typically start with the
regular mail and escalate to more active methods if there is no response. Methods include
certified mail, restricted delivery mail, notice by publication, and personal service by a private
vendor or local law enforcement official. When mail is certified or restricted, the recipient must
personally sign for the mail in order to be properly served. Some local staff report the same man
may be served four or five times using different methods before they have proof in the form of a
signature or personal contact. It is common to allow 15 to 45 days for response prior to the next
service, so several months may go by before the putative father responds. Two local offices in
one focus State report they have stopped sending the first notice by regular mail, because they
believe this alerts fathers who wish to avoid future notice by not signing certified mail. Other
local offices report they believe parents respond better to service of judicial orders than
administrative orders.

ADMINISTRATIVE METHODS OF PATERNITY ESTABLISHMENT

Welfare reform legislation encourages States to utilize administrative methods to establish
paternity. These practices rely solely on the actions and authority of the child support agency, or
are quasi-administrative methods which, though primarily relying on child support, also allow
limited court involvement. We identified 25 States as having quasi-administrative paternity
establishment practices.

Most Administrative Paternity Establishment Methods Involve Mutual Parental Consent,
Often Following Genetic Testing, But May Not Use Voluntary Acknowledgment Forms.

In a typical administrative paternity establishment, the public assistance client provides
information about the putative father, and the putative father is sent notification to appear for
genetic testing. If he and the mother are already sure he is the father, they may sign a voluntary
acknowledgment or other consent form. If they are uncertain, they submit to genetic testing and
sign an acknowledgment once testing has affirmed parentage. Under this method, the public
assistance client may have to formally attest to her belief that he is the father by signing her half of
the voluntary acknowledgment or another form stipulating paternity before the child support
office agrees to contact a particular putative father. In a few of these States, administrative
establishment through voluntary acknowledgment appears to be possible only prior to application



                                           )))))))))))
                                                6
for public assistance. Even in cases of mutual consent, all public assistance referrals in which
paternity is not resolved are given a court hearing date.

In States which rely more heavily on judicial practices, voluntary acknowledgment is the only fully
administrative method of paternity establishment. These States typically use the same form,
whether paternity was acknowledged at birth or at anytime thereafter. Other of these States have
similar administrative methods but use the voluntary acknowledgment form only at birth in the
hospital or at an alternative site prior to application for public assistance benefits. For paternities
established later, these States use administrative paternity orders based on mutual consent,
typically called Agreed Orders or Consent Agreements. Such orders may include more
information than an acknowledgment affidavit, such as the amount of the support award, and even
custody and visitation guidelines. Similar to voluntary acknowledgments, these agreed orders are
signed by mutual consent, either without or following genetic testing. Although this procedure is
fully administrative in some States, others follow a quasi-administrative process in which the order
is prepared by child support staff and then routinely approved by a State court.

Parents in Nearly All States May Voluntarily Agree to Paternity Establishment at Any Point in
the Process, Either Through Voluntary Acknowledgment or Other Agreed Consent.

Our interviews with local office staff indicate that it is not unusual for parents to suddenly agree
to voluntarily acknowledge or otherwise consent long after this option was initially offered to
them and after the process of establishing paternity through other methods has begun.
Commonly, these late agreements follow the release of genetic testing results. Advances in
genetic testing allow parents to be sure, with 99 percent or greater accuracy, that the correct
father has been identified. In some States, a genetic test result that affirms the father serves as a
finding of paternity with little or no additional paperwork or other action on the part of the
parents or child support staff. In 13 States, the parents must sign an agreement indicating they
will abide by the test results. If they do not sign such an agreement, the tests must be submitted
into evidence in court and serve as the basis for a default order of paternity. Whether such a
signed agreement to abide by test results is required or not, local staff in focus States report that a
father may choose instead to sign a voluntary acknowledgment or agreed order of paternity
following testing. They theorize that once he is assured he is the father, he may want to
voluntarily establish paternity as an expression of his intent to accept responsibility as a parent.

If consent or voluntary acknowledgment comes after a court hearing date has been set, the
parents may still have to appear in court. Staff in one local child support office report that their
State court will not amend its docket, so the parents still must submit to a hearing even after they
have signed an administrative consent or voluntary acknowledgment form. They indicate, though,
that with proof of prior acknowledgment or consent to paternity, the hearing becomes a summary
exercise and is not overly taxing to either parents or staff. One local office still requiring that all
voluntary acknowledgments of public assistance clients be processed through such a token court
hearing reports handling up to 100 cases in a single court day. This group paternity establishment
practice is also reportedly used for fully administrative paternity establishments. For example,
child support staff schedule appointments for many fathers at their office on a weekend or



                                           )))))))))))
                                                7
evening to receive information on paternity and be provided an opportunity to voluntarily
acknowledge.

Even When Voluntary Paternity Acknowledgment is Possible, Some Child Support Staff
Prefer to Establish Paternity Through Other Administrative or Even Judicial Methods.

Due to recent Federal regulation, voluntary paternity acknowledgment has emerged as the
centerpiece of most States’ paternity establishment efforts. We discuss the use of the voluntary
acknowledgment process in detail in a companion report.8 However, we believe it is useful in this
report to provide some comparison between voluntary acknowledgment and the potentially more
labor-intensive methods of paternity establishment we describe here. When used effectively,
acknowledgment provides a streamlined method of paternity establishment which potentially
benefits parents, children, and child support staff.

             Table 2: PERCEIVED ADVANTAGES OF ESTABLISHING PATERNITY
           THROUGH METHODS OTHER THAN VOLUNTARY ACKNOWLEDGMENT

          Advantages of Other Methods                     State CSE        Local CSE Focus
                                                         Respondents         Respondents

 Ensures that the Correct Father Was Identified         61% (31 States)    62% (63 Offices)

 Reduces the Potential for Rescission                     51% (26)             61% (62)

 Custody and Visitation May be Handled Also               37% (19)             47% (47)

 More Confident Parents Understand the Meaning            33% (17)             62% (62)

 Establishment Holds Greater Weight in Court              27% (14)             66% (64)


Table 2 outlines possible benefits of establishing paternity using methods other than voluntary
acknowledgment. Local child support staff in focus States more often (62 percent) report
concern than State-level respondents (33 percent) that parents may not understand the
significance of the signed acknowledgment. Local office respondents in focus States (66 percent)
are also more skeptical than State-level respondents (27 percent) of the legal standing accorded
voluntary acknowledgments by courts. As one local office reports, “Voluntary acknowledgment
would be easier in the short-term, but with a [court order] at least we know we won’t have to
reopen the case later.” The lesson here may be that policymakers should not automatically
assume that voluntary paternity acknowledgments are always more timely and efficient, in view of
their reluctant acceptance by some child support and court staff, and their inherent limitations
which make them unsuitable for the resolution of some paternity cases.

State Child Support Agencies View Administrative Paternity Establishment Methods as Fairly
Easy for Parents and Staff, But a Few Report Encountering Significant Problems.

Only five State child support agencies report it is difficult to facilitate administrative paternity
establishments, with the remaining States indicating it is easy, somewhat easy, or no more difficult
than other methods of paternity establishment. Only one State reports the administrative


                                                  )))))))))))
                                                       8
process is difficult for parents. However, local offices in focus States are more likely to complain
of difficulty in handling administrative paternity orders, with 27 percent of offices reporting they
view the process as at least somewhat difficult. The level of ease or difficulty for local staff
appears to depend largely on how much information they have about the putative father and
whether any evidence of paternity exists. Twenty percent of local offices report an administrative
process is likely to be more difficult for parents than for staff, again depending on the specifics of
the case. When staff speculate about the cause of this difficulty, they usually mention the stress to
parents of completing paperwork and keeping appointments. Overall, though, both State and
local staff appear to view administrative methods as easier for parents than judicial methods.

Despite being easier, State and local agency respondents report a number of problems with
administrative paternity establishment. Staff suggest that administrative methods take longer and
are more cumbersome for a variety of reasons: parents are more likely to ignore “service of
process” from a child support office; more people must approve each action rather than a single
judge having simple ruling authority; their jurisdictions are already accustomed to court
proceedings; and child support offices may not receive extra staff to manage more heavily-
administrative procedures. One local office caseworker complained, “Two to three years ago, we
started handling all paternity cases administratively which created a considerable backlog.
Handling every paternity case administratively was a fiasco of the highest order - the worst thing
I've seen in the department in 18 years. Region-wide, administrative process was not productive,
so we were told to use our own discretion to send the case to court or [handle it]
administratively.” A number of other respondents also supported allowing local staff to choose
the path cases should take, explaining that specific factors affecting each office and each case can
drive a timely resolution. Some report they make the decision about whether to attempt
administrative procedures based in part on advice from the mother. For example, she may warn
staff to expect resistance from the putative father, which may encourage them to involve the
courts when they would not otherwise.

The 25 States Who Primarily Rely on Administrative Systems Actually Employ Quasi-
Administrative Methods Which Continue to Utilize the Courts in Varying, Limited Degrees.

Many States which view their primary paternity establishment method as administrative still work
together with their State courts on many cases. We found that half of States (25) primarily apply
administrative methods. The degree of court involvement varies markedly among States, among
counties within States, and among clients within the same county, depending on the circumstances
of particular cases. At the most fully administrative end of this spectrum, State courts may only
be involved to settle unusually difficult disputes or if the father has ignored all attempts at contact,
a default order is needed, and State law does not allow the child support agency to issue a default
order independently.

At the other end of the spectrum are States which employ administrative establishment methods,
but require cursory court approval for each step in the establishment process. For example,
routine approval may be required before the child support agency can personally serve the
putative father with a letter requesting an appointment, order genetic testing, or require a hearing



                                           )))))))))))
                                                9
for submission of test results. These methods may still be viewed as administrative because the
child support office is generally in control of what steps are taken in each case, and prepares the
paperwork involved. Where the child support agency is housed within a State law enforcement
department, the child support agency itself is likely to employ the legal staff which carry out all
aspects of judicial activity. Table 3 outlines characteristics we used to identify quasi-
administrative States. The 25 States identified do not each possess all of these traits, but meet
enough of the criteria below to be characterized as using administrative methods more
prominently than judicial methods.

          Table 3: TYPICAL CHARACTERISTICS OF QUASI-ADMINISTRATIVE STATES

      C       Paternity establishment may occur with little or no court involvement

      C       Child support agency primarily determines the procedures used to establish paternity

      C       Voluntary acknowledgment is binding without court approval

      C       Rescission of voluntary acknowledgment is a fully administrative process

      C       Genetic tests may be ordered by the child support agency without court approval

      C       Default orders of paternity may be created with little or no court involvement

      C       Initial hearings and conflict resolution are conducted by the child support agency


Many States Are Proponents of Quasi-Administrative Methods that Limit Court Involvement,
But Some Believe Paternity Could Be Established More Quickly Without the Courts.

Many States report limited court involvement is highly efficient. This often involves only token
action on the part of a judge or court representative, and may not require the presence of either
parent. Proponents of limited court involvement in administrative methods report that parents are
more likely to show up for scheduled appointments and hearings if they are ordered by the State
or county court than by the child support enforcement agency. One local office manager reports,
“Administrative methods just look like a piece of paper, and don’t look as legal.” In some
States, the child support agency does not have administrative authority to order action, such as
submission to genetic testing, on the part of a putative father or issue a default order of paternity.
In these States, it is necessary to involve the courts in cases where the putative father refuses to
come forward for testing or to consent. A number of local child support staff members also
mention that it has recently taken less time for a case to come to judicial hearing or receive court
approval, possibly because streamline quasi-administrative paternity establishments ease court
dockets.

We heard little opposition to limited court involvement, but a few respondents report that
allowing the legal system to enter an administrative process slows down timeframes and opens
cases to a judge’s discretion unnecessarily. For example, a judge may choose to allow a father
more time than is reasonable to submit to genetic testing, or may indiscriminately waive
arrearages owed to the child support agency. It appears that court involvement in administrative



                                              )))))))))))
                                                   10
processes is viewed negatively primarily when State courts must approve more than one step in
the establishment process. A number of State and local child support staff within these quasi-
administrative systems report they are not burdened by consulting the courts for a final decree of
paternity, but dislike having to obtain court approval for less significant steps in the process.

Only a Few States Attempt to Resolve Issues of Custody and Visitation as Part of
Administrative Paternity Establishment Processes.

Child support agencies in only two States are required to resolve issues of custody and visitation
at the time of an administrative paternity establishment, and agencies in two other States are
allowed, but not required, to do this. All four of these States employ legal staff to guide parents
and caseworkers in facilitating custody and visitation agreements, and at least one State has a
mediator on staff who explains options to the parents and seeks agreement. These issues are
typically only resolved within the child support office if parents readily agree to the terms of the
custody and visitation, and as part of a single process which links paternity establishment to the
creation of the child support order. If parents disagree on issues of custody and visitation, staff
within these States are likely to make only a limited attempt to resolve the dispute before referring
parents to a family services agency or to the State courts. Depending upon State processes, this
agreement regarding custody and visitation may only be temporary pending final case review. A
few individual local offices in focus States report they attempt to handle these issues informally at
the time the support order is created.

JUDICIAL METHODS OF PATERNITY ESTABLISHMENT

Before Federal and State governments created active child support enforcement agencies, parents
wishing to establish paternity typically had to hire legal counsel and appeal to the courts. State
courts are still integral to paternity establishment, but the involvement of child support agencies
has significantly diminished the level of responsibility of the courts by managing paternity
establishment efforts for public assistance clients and other parents. We identified 26 States as
having quasi-judicial paternity establishment practices.

Judicial Paternity Establishment Methods Involve Extensive Collaboration Between State
Courts and the Child Support Enforcement Agency.

Judicial paternity establishment proceedings for public assistance clients typically begin with the
mother signing an allegation or stipulation of paternity which names the putative father. These
forms are themselves court documents and may be submitted as an official complaint for court
action. They may also be used later in a court proceeding as evidence of paternity. The forms
include information about the mother and child, and as much information about the putative father
as is available. Some States substitute the mother’s half of the voluntary acknowledgment form
for this same purpose.9 As mentioned previously, most States make an effort to encourage the
father to acknowledge or consent to paternity at this point. In States who use primarily judicial
procedures, child support staff initiate the legal case at the same time that they are waiting for the
father to possibly come forward or submit to genetic testing voluntarily.



                                          )))))))))))
                                               11
After the child support agency has filed the complaint with the court, parents typically are given a
hearing date. The filing process may take two to six weeks, and the court date is likely to be
scheduled 30 days to six months later, in order to allow for service of process and to fit within the
court docket. If the mother has already signed a stipulation of paternity, she may not need to
attend the court hearing. In this initial court hearing, the judge will likely order the putative father
to submit to genetic testing. Some courts offer testing on-site, so that genetic samples may be
collected immediately.10 If the father is affirmed by the genetic test, the child support agency may
request that he sign an agreement to abide by the testing results. If he does not sign, an additional
hearing may be necessary to order the test as a binding establishment of paternity. A single case
may then involve more than one court appearance, potentially including an initial hearing to order
genetic testing, a second to issue an order of paternity and set the amount of the support award,
and a third to settle matters of custody and visitation.

In most States, these court hearings appear to be brief and routinized, varying little based on the
circumstances or people involved. Courts may offer one or two days a month during which they
handle all pending paternity cases, with a single legal representative presenting case after case to
the judge. A few other States have more formal and personal proceedings, with actual testimony
on the part of the mother and father and submissions of acknowledgments or genetic test results
as “evidence.” These are the exception, unless the court is attempting to resolve paternity in the
same session as other issues, or unless the father or mother have hired private legal counsel.
Although prior voluntary acknowledgments of paternity and default orders appear to be
overturned fairly often in court hearings, positive genetic testing results almost always result in a
judicial finding of paternity.

Twenty-six States Continue to Primarily Rely on Quasi-Judicial Methods of Paternity
Establishment, With the Exception of Restricted Use of Voluntary Acknowledgments.

Based on our analysis of survey responses and review of agency documents, child support
agencies in 26 States appear to use quasi-judicial methods almost exclusively in establishing
paternity for public assistance clients. It should not be assumed from this, though, that the State
child support office is not still largely in control of, and responsible for, paternity establishment
efforts. We define quasi-judicial practices as those in which the child support agency has
responsibility for shepherding cases through the system, including acquiring initial information,
locating the absent parent, completing paperwork and enforcing court mandates, but only the
State courts make final case decisions and have the authority to legally establish paternity. Child
support agencies in a number of these States are sub-divisions of a State law enforcement agency
and in some cases share both legal staff and office space with the State courts. Although these
States are obligated to seek court approval for paternity establishments, the lines can be blurred
between administrative and judicial practices.

Similar to States which employ limited court involvement, the level of judicial involvement and
authority in paternity establishment practices varies by State, locality and caseload. Clearly, no
States have fully judicial processes. However, we can affirm that within these 26 quasi-judicial
States, the only fully administrative method of paternity establishment is voluntary



                                           )))))))))))
                                                12
acknowledgment. Otherwise, the prescribed practice for establishing paternity relies solely on
court authority. Nevertheless, more functions are currently handled administratively than in past
decades of judicial procedures under which parents were nearly always forced to hire legal
counsel and submit to traditional court hearings, or even trials, to establish paternity.

We found that States which primarily use quasi-judicial methods all offer voluntary paternity
acknowledgment, and all have conducted outreach campaigns of varying sorts to publicize the
voluntary acknowledgment option. However, voluntary acknowledgments appear to only be used
at birth or previous to application for public assistance. Once a public assistance client with
unresolved paternity enters the child support system, child support staff in these States routinely
draw up paternity orders requiring court approval rather than using voluntary acknowledgments.
In a few of these States, even signed voluntary acknowledgments require perfunctory court
approval before they can stand as legal findings of paternity.11 Table 4 outlines characteristics we
used to identify quasi-judicial States. Just as for those States identified in Table 3 as quasi-
administrative, the 26 States identified do not each possess all of these traits, but meet enough of
the criteria below to be characterized as using judicial methods more prominently than
administrative methods.

              Table 4: TYPICAL CHARACTERISTICS OF QUASI-JUDICIAL STATES

      C       Paternity cases require court approval or are often resolved through the courts

      C       State court determines in part the procedures used to establish paternity

      C       Voluntary acknowledgment may require court approval prior to a child support order

      C       Rescission of voluntary acknowledgment is a court process

      C       Genetic testing orders require a court order

      C       Default orders of paternity require a court order

      C       Hearings and conflict resolution are typically conducted by the courts


While Most State and Local Child Support Offices Report it is Fairly Easy for Them to
Facilitate Judicial Establishments, Many Believe Judicial Procedures are Harder on Parents.

Only eight State child support agencies (15 percent) report it is difficult for their staff to deal with
the courts in facilitating judicial paternity orders, but 17 States (33 percent) believe this process is
more difficult for parents than resolving paternity through administrative methods. A number of
State child support agencies indicate that the ease or difficulty of judicial establishments varies
considerably based on the particular court and the circumstances of the case. Their experience is
that some individual judges have streamlined the process of judicial paternity establishment far
more than others. An almost identical percentage of local offices in focus States (14 percent)
report the judicial process is difficult for child support staff. Slightly fewer local offices (22
percent) see judicial processes posing problems for parents than do State-level respondents. At
least one local office manager mentions that the efficiency and effectiveness of support staff within
the court system may drive the level of ease or difficulty more than the judge. For States in which


                                               )))))))))))
                                                    13
the child support agency is part of the State law enforcement community rather than a social
services department, these court facilitators are sometimes child support agency staff.

Judicial Paternity Establishment Procedures May Ease Resolution of Custody, Visitation or
Other Issues by Streamlining Several Child Support Functions Into a Single Process.

Issues of custody and visitation are resolved during the same hearing as the paternity
establishment in 20 States, with six of these States actually requiring that these matters be handled
jointly. In most States where these issues are not addressed during the same hearing, written
documents indicate that the mother automatically has primary custody with the father receiving
reasonable rights of visitation. Individual judges are likely to have a template for determining
what is “reasonable,” assigning the same basic schedule to each father. In documents we studied,
it appears to be common to grant fathers one day a week and one weekend a month with their
children. Should either parent wish to change this basic custody and visitation arrangement, they
must request a separate hearing.

One local office manager reports his staff is allowed to address issues of visitation, but not
custody, in the paternity hearing. This provides a temporary agreement for the father to maintain
contact with the child while possibly waiting for an additional court hearing to more permanently
resolve these issues. In at least one State, courts are obligated to attempt to schedule this
additional hearing immediately following the hearing establishing paternity. Whether custody and
visitation issues are handled within the same hearing or not, child support staff are unlikely to be
directly involved in that portion of the proceeding. However, along with public assistance or
other social service caseworkers, they may be involved informally in helping parents to secure
counsel or prepare documents.

DEFAULT ORDERS OF PATERNITY

Paternity may be established by default when no action is taken by the putative father. In some
States, default paternity orders may only be issued by the courts, while others use administrative
or judicial methods depending on the circumstances in the case. Most States appear to use default
orders only as a last resort in establishing paternity.

States Issue Default Orders Establishing Paternity After Multiple Attempts to Contact the
Putative Father Yield No Response.

Paternity may be established by default when the putative father has been unresponsive to the
child support agency and courts. Typically, the first step in this process is for the mother to name
a man as the putative father. Agencies in 46 States set a court hearing date if they receive no
response to requests that the putative father take action in the case.12 Table 5 outlines the most
prominent circumstances under which default procedures would begin. The most common
situation reported by States is the father’s failure to appear for a court hearing, indicating that
many of the cases determined by default are already in the court system and paternity would have
been established by judicial methods regardless of the father’s actions. If the father fails to



                                          )))))))))))
                                               14
appear on the hearing date, or does not otherwise respond to the hearing notice, both parents are
sent notice that a default paternity order will be issued by a certain date naming him as the father.

               Table 5: REASONS FOR STATE TO BEGIN DEFAULT PROCEDURES

                    Reasons for Default                       State CSE          Local CSE
                                                             Respondents      Focus Respondents

 Putative Father Fails to Appear for Court Hearing            92% (46)            85% (80)

 Putative Father Fails to Submit Genetic Testing Material     70% (35)            60% (56)

 Putative Father Fails to Abide by Genetic Testing Results    26% (13)            33% (31)

 Putative Father Fails to Keep Child Support Appointments     24% (12)            22% (21)


Some States require that these notifications be received in person, and will not issue a default
order of paternity without successful personal service of process.13 Ensuring notification in this
way presumably protects the man from an incorrect ruling, and seems like a reasonable
requirement in light of the gravity of paternity establishment. However, requiring personal service
could delay the process of paternity establishment, particularly if the man is purposefully avoiding
his obligation. Although seven State child support agencies report half or more of paternities
established in their States occur through default, the remaining States indicate only some or few
cases are resolved in this way. Twenty-four percent of local offices in focus States report half or
more of paternities in their caseloads are established by default.14 One State reports that the
number of default orders has decreased due to the ease of using other establishment tools, such as
voluntary paternity acknowledgment and genetic testing.

Only State Courts May Issue Default Orders of Paternity in 40 States, But Child Support
Agencies in the Remaining States are Allowed to Issue Default Orders Administratively.

In most States (40), only the courts are allowed to issue default orders of paternity.15 In an
additional three States, the child support agency issues an administrative default order of
paternity, but it must first be officially approved by a State court. The remaining eight States
essentially have two types of default paternity rulings. The child support agency may issue an
administrative default order acting without court involvement, and the State courts may issue
judicial default orders. In these States, cases which are candidates for default orders may need to
have a presumption of paternity in order to go through administrative procedures. This
presumption might be a completed genetic test, or a signed voluntary paternity acknowledgment,
although the latter is Federally mandated to stand on its own as a conclusive finding of paternity.16


If no such presumption exists, the case is referred to the State courts where the judge may issue a
default order with no actual evidence of paternity. Sometimes a mother names multiple potential
fathers and is unable to conclude that a single one is more likely to be the parent. In these cases,
child support staff attempt to narrow the number of potential fathers by requesting responses from
all. Their lack of response may seriously hamper case resolution. In documents we


                                               )))))))))))
                                                    15
reviewed, some State laws specifically restrict issuance of a default order of paternity to cases in
which the State knows of only one potential father.

Parents in 41 States May Appeal Default Orders and Submit to Genetic Testing, But Typically
Must Prove They Were Not Notified of the Action or Were Inhibited From Responding.

Parents wishing to contest default paternity orders, as allowed by 41 States, must typically act
within a limited time period. In States which have a time limit, the appeal window varies from 30
days to two years. This time period may be determined by State laws which allow the same
number of days to appeal any State court judgement. In States which use administrative default
orders, parents may be entitled to file a “request for disestablishment” administratively if it is a
fairly new order, and through the courts if it is older. It is important to remember that although it
is most likely to be the father who will request an appeal, the mother may also appeal the ruling.
For example, a mother may have named a putative father casually when applying for public
assistance, not realizing that the State would attempt to collect support. If she then ignores future
mailings or requests for appointments, the wrong father could be named by default. In order to
reopen the paternity case, either parent may have to prove they were not notified of the pending
paternity establishment, that a legal error was made by the child support agency or court, or
simply that they had a good reason for not responding (such as serving time in prison). At least
one State has borrowed language from the voluntary paternity acknowledgment process, which
requires the parent to prove “fraud, duress, or material mistake of fact” in their appeal.

In States which have both, administrative and judicial default orders are intended to convey the
same legal finding of paternity. However, child support staff in four of the eleven States which
issue administrative default orders indicate it is somewhat easier for a parent to contest an
administrative default order in court than a judicial default order. Depending upon the judge and
the facts in the case, both administrative and judicial default orders may later be overturned. If
the court proceedings lead to positive proof of paternity, such as a genetic test which does not
exclude the putative father, the default order is changed to a court order of paternity and is
difficult, if not impossible, to overturn. This appeals process may cause some duplication of effort
and delay, because cases which are appealed may, by genetic testing, prove to have identified the
correct father.17

A Father May be Most Likely to Appeal Default Paternity Orders After the State Begins Wage
Withholding, and He May Be Obligated to Pay Support While the Appeal is Pending.

Even the notification that a default order has been issued may not be enough to force a father to
respond. Several local child support staff report they follow a default order of paternity by
immediately ordering wage withholding, whereas, with other paternity establishment methods,
they may wait to first see if the father will initiate payment. As one local office manager
describes, “The father may wait until we take the money out, some time after the order went
through because we have to find the employer, and then the father says we have the wrong guy.”
Regardless of the timing, appealing a default order is not likely to be an easy process. Several
State and local managers report they advise parents who wish to appeal to hire an attorney to
negotiate the process. This might be financially difficult for a large number of fathers, and they


                                          )))))))))))
                                               16
may end up paying months of child support payments even if they are eventually proven not to be
the father. Even if later excluded by genetic testing, staff indicate the man may still be liable for
the child support arrearages not paid during the time he was presumed to be father by default.

Despite these vulnerabilities, States clearly must have the option of issuing default orders in order
to speed the process of paternity establishment in cases where the putative father chooses not to
respond. Knowing that it may take an actual order of paternity to spur action on the part of the
father, staff in several local offices said they issue cursory administrative default orders in a large
number of cases. Once the fathers respond, they allow them to submit to genetic testing without
a formal appeals process.




                                           )))))))))))
                                                17
                       R E C O M M E N D A T I O N S

OCSE Should Assist States in Sharing Successful Practices in Notifying Putative Fathers.

We found that State child support agencies are experiencing significant problems in ensuring
putative fathers are properly notified of requests to resolve paternity and of potential action by the
State in establishing paternity. OCSE should further research State practices in this notice, often
called “service of process,” and develop an understanding of successful local practices. They
should then provide technical assistance to States in improving service of process, potentially
reducing delays in paternity establishment.

OCSE Should Encourage States to Strengthen Child Support Agency Authority and
Capability, Enabling Them to Establish Paternity Without The Courts When Practical.

Federal regulation clearly indicates that States should make available simple, civil processes.
However, we found that a number of States responded to this provision only by developing a
voluntary paternity acknowledgment process used primarily at birth, and still rely on courts to
issue most or all paternity orders. Although court processes in some States appear to be highly
efficient, States may need additional guidance in developing fully administrative procedures and
eliminating unnecessary court involvement. OCSE should provide additional assistance to States
to enhance child support agency capability to establish paternity without court involvement.

OCSE Should Provide Technical Assistance to States Aimed at Streamlining and
Rationalizing Their Paternity Establishment Methods, Whether Administrative or Judicial.

State paternity establishment practices usually blend administrative and judicial procedures, basing
the level of court involvement on a number of internal factors. Federal regulations encouraging
administrative procedures are intended to increase the timeliness and efficiency of the paternity
establishment process. OCSE should provide further technical assistance to States aimed at
expediting paternity establishment, whether the procedures are fully administrative or allow some
court involvement.

OCSE Should Encourage States to Further Explore the Usefulness of Combining Separate
Child Support Functions, Including Paternity Establishment, into a Single Process.

Recognizing that State paternity establishment practices for public assistance clients still often
involve summary court action, OCSE should assist States in determining whether they may
collapse other child support functions into a single court process with paternity establishment.
Depending upon State law, child support agencies may streamline child support enforcement by
addressing paternity establishment, award settlement, and custody and visitation issues together,
whether in an administrative or judicial process.




                                          )))))))))))
                                               18
AGENCY COMMENTS

The Administration for Children and Families (ACF) generally concurs with our
recommendations, and agrees to continue efforts to address the issues raised in our report. We
appreciate ACF’s current initiatives aimed at improving State practices in paternity establishment.
The serious problems detected in our study may not be alleviated without focused corrective
action. We wish to particularly reinforce the idea that, although Federal regulation encourages
administrative procedures, OCSE should provide technical assistance to States aimed at
streamlining and rationalizing their paternity establishment methods whether administrative or
judicial.

ACF comments are provided in their entirety in Appendix A.




                                         )))))))))))
                                              19
                                   ENDNOTES

1. SEC. 468. [42 U.S.C. 668]

2. These State and local offices were not randomly selected and their responses should not be
interpreted as representative of all local offices in the nation or even within their own State.

3. The availability of OIG agency support staff to assist in conducting interviews played a role in
selection of these interview sites.

4. The six focus States comprise 31 percent of total U.S. births, 32 percent of total U.S. non-
marital births, 32 percent of total U.S. IV-D cases, 26 percent of total U.S. IV-D cases with child
support orders, and 27 percent of total U.S. IV-D cases with child support collections. The
collective non-marital birthrate of the focus States is almost identical to the national average (32.0
percent vs. 32.4 percent), with somewhat lower, but comparable, rates for the percentage of IV-D
cases with support orders (47.3 percent vs. 57.3 percent), and the percentage of cases actually
collecting support (16.4 percent vs. 19.4 percent). Comparison data comes from the OCSE 21st
Annual Report to Congress and the National Center for Health Statistics.

5. Further information is contained in our forthcoming report entitled “Client Cooperation with
Child Support Enforcement: State Policies and Practices, OEI-06-98-00040, 2000.

6. Further information is contained in a series of reports on client cooperation: ibid, OEI-06-98-
00040; Challenges and Strategies, OEI-06-98-00041; The Role of Public Assistance Agencies
OEI-06-98-00042, and Use of Good Cause Exceptions OEI-06-98-00043, 2000.

7. Some State laws appear to prohibit publication of potential support awards on notification
letters to putative fathers.

8. Further information is contained in our companion report entitled Paternity Establishment: Use
of Voluntary Acknowledgments, OEI-06-98-00053, 2000.

9. There may be a requirement as to how many pieces of information about the putative father are
needed in order to submit it to court. This requirement does not appear to be arduous, though,
with only two or three pieces of information required.

10. Further information is contained in our companion report entitled Paternity Establishment:
Use of Genetic Testing, OEI-06-98-00052, 1999.

11. Further information is contained in our companion report on the use of voluntary
acknowledgments, ibid, OEI-06-98-00053, 2000.

12. Rather than setting a court hearing date, child support agencies in two States require the
father initiate court involvement by requesting a hearing date himself by a certain date.




                                          )))))))))))
                                               20
13. We did not ask States directly if they required personal service of process. However, four
States took the initiative to write this requirement on their survey, and from that we assume that
more States may also require personal service.

14. This matches the State-level response for our focus States fairly well, with State child support
agencies in two of the six indicating half or more paternities were established through default.

15. Two States report they have no default orders of paternity. However, after reviewing their
narratives of judicial processes we determined that they did issue default orders but used different
terminology to describe them.

16. Further information is contained in our companion report on the use of voluntary paternity
acknowledgments, ibid, OEI-06-98-00053, 2000.

17. We did not attempt in our research to determine the proportion of default paternity orders
which were eventually overturned.




                                          )))))))))))
                                               21
APPENDIX A





  )))))))))))
      A - 1

)))))))))))
    A - 2

)))))))))))
    A - 3

)))))))))))
    A - 4

